Appendix

Table of Contents
Order denying emergency motion for injunctive relief pending appeal, Lamm et al.
v. Bullock, et al., No. 20-35847 (9th Cir.) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
Order denying permanent injunction, Lamm et al. v. Bullock et al., No. 6:20-cv0067-DLC (D. Mont.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2a
Judgment, Lamm et al. v. Bullock et al., No. 6:20-cv-0067-DLC (D. Mont.) . . . . 48a
Order denying injunction pending appeal, Lamm et al. v. Bullock et al., No.
6:20-cv-0067-DLC (D. Mont.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50a
U.S. Const. art. I, § 4, cl. 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52a
U.S. Const. amend I . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52a
U.S. Const. amend XIV . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52a
Mont. Const. art. III, § 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53a
Mont. Const. art. IV, § 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54a
Mont. Code Ann. (“MCA”) § 10-3-104(2)(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54a
MCA § 10-3-104(2)(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54a
MCA § 13-13-201 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55a
MCA § 13-13-205 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56a
MCA § 13-13-211 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56a
MCA § 13-13-212 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56a
MCA § 13-13-213 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60a
MCA § 13-13-214 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61a
MCA § 13-13-245 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62a
MCA § 13-19-101 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63a
MCA § 13-19-104 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 64a

MCA § 13-19-105 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 64a
MCA § 13-19-106 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65a
MCA § 13-19-201 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66a
MCA § 13-19-202 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66a
MCA § 13-19-205 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67a
MCA § 13-19-206 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68a
MCA § 13-19-306 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69a
MCA § 13-19-307 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69a
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 70a
Gov. Bullock, Directive implementing Executive Orders 2-2020 and 3-2020 and providing for
measures to implement the 2020 November general election safely (Aug. 6, 2020) . . 71a

Case: 20-35847, 10/06/2020, ID: 11848568, DktEntry: 10, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

OCT 6 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JOE LAMM; et al.,
Plaintiffs-Appellants,
v.
STEPHEN C. BULLOCK, in his official
capacity as Governor of Montana; COREY
STAPLETON, in his official capacity as
Secretary of State of Montana,

No.

20-35847

D.C. No. 6:20-cv-00067-DLC
District of Montana,
Helena
ORDER

Defendants-Appellees.
Before: W. FLETCHER, BERZON, and BYBEE, Circuit Judges.
Appellants’ emergency motion for injunctive relief pending appeal (Docket
Entry No. 3) is denied. See Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20,
(2008).
The briefing schedule established previously remains in effect.

Appendix 1a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 1 of 46

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION
DONALD J. TRUMP FOR
PRESIDENT, INC., REPUBLICAN
NATIONAL COMMITTEE;
NATIONAL REPUBLICAN
SENATORIAL COMMITTEE;
MONTANA REPUBLICAN STATE
CENTRAL COMMITTEE,

CV 20–66–H–DLC
(Consolidated with Case No. CV–
20–67–H–DLC)

ORDER
Plaintiffs,
and
GREG HERTZ, in his official capacity
as Speaker of the Montana House of
Representatives; SCOTT SALES, in
his official capacity as President of the
Montana Senate, on behalf of the
Majorities of the Montana House of
Representatives and the Montana
Senate,
IntervenorPlaintiffs,
vs.
STEPHEN BULLOCK, in his official
capacity as Governor of Montana;
COREY STAPLETON, in his official
capacity as Secretary of State of
Montana,
Defendants,
and

Appendix 2a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 2 of 46

DSCC, DCCC, and MONTANA
DEMOCRATIC PARTY,
IntervenorDefendants.
“No right is more precious in a free country than that of having a voice in
the election of those who make the laws under which, as good citizens, we must
live.” Burdick v. Takushi, 504 U.S. 428, 441 (1992). As this case illustrates,
protecting this right during a global pandemic presents unique challenges. Indeed,
jurisdictions across the country have had to make difficult decisions about their
electoral processes, often balancing the interests of public health against the
interests of ensuring their citizens can adequately exercise their franchise.
Montana is no exception.
This litigation requires the Court to determine the constitutionality of
Governor Bullock’s August 6, 2020 directive permitting counties to conduct the
November 3, 2020 general election, in part, by mail ballot (“the Directive”).
Plaintiffs in the lead case (CV 20–66–H–DLC) (“Lead-Plaintiffs”), IntervenorPlaintiffs, and Plaintiffs in the member case (CV–20–67–H–DLC) (“MemberPlaintiffs”) (collectively “the Plaintiffs”) ask this Court to permanently enjoin

Appendix 3a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 3 of 46

enforcement of the Directive. (Docs. 1 at 34; 1 at 39;1 38 at 21–22.) Additionally,
Member-Plaintiffs seek to enjoin Secretary Stapleton’s approval of proposals from
counties seeking to conduct the November 3, 2020 general election, in part, by
mail ballot. (Doc. 1 at 39.)
In response, Defendant Stephen Bullock (“Governor Bullock”) and
Intervenor-Defendants (collectively referred to as “Defendants”) assert that not
only do Plaintiffs’ claims fail, but jurisdictional hurdles preclude the issuance of
the relief they seek. (See generally Docs. 73–74; 81.) For the reasons stated
herein, the Court finds that while it has jurisdiction over the dispute, the Plaintiffs’
claims are without merit. Accordingly, the Plaintiffs’ prayers for relief will be
denied and judgment in Defendants’ favor will be entered.
In many respects, this case requires the Court to separate fact from fiction.
As referenced throughout this Order, the parties have provided the Court with
considerable evidence in the form of declarations and documents. Central to some
of the Plaintiffs’ claims is the contention that the upcoming election, both
nationally and in Montana, will fall prey to widespread voter fraud. The evidence
suggests, however, that this allegation, specifically in Montana, is a fiction.

1

As discussed below, this Court has consolidated the lead case (CV 20–66–H–DLC) and
member case (CV–20–67–H–DLC) pursuant to Federal Rule of Civil Procedure 42(a)(2). (Doc.
45.) Citation to document “1 at 39” refers to document 1 as it exists in the member case (CV–
20–67–H–DLC) pre-consolidation. Throughout this Order citations to certain documents
reference documents filed only in the member case (CV–20–67–H–DLC).

Appendix 4a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 4 of 46

When pressed during the hearing in this matter, the Plaintiffs were
compelled to concede that they cannot point to a single instance of voter fraud in
Montana in any election during the last 20 years. Importantly, Montana’s use of
mail ballots during the recent primary election did not give rise to a single report of
voter fraud. This is due, in large part, to the fact that Montana has a long history of
absentee voting by as many as 73% of its electorate, combined with the experience,
dedication, and skill of Montana’s seasoned election administrators. Thus, there is
no record of election fraud in Montana’s recent history, and it is highly unlikely
that fraud will occur during the November 3, 2020 general election. This is fact,
which should provide comfort to all Montanans, regardless of their political
persuasion, that between now and November 3, 2020 they will be participating in a
free, fair, and efficient election.
BACKGROUND
I.

Factual Background

The COVID-19 pandemic constitutes a serious global health risk that has
paralyzed most of the world. As with the rest of the United States, Montana has not
been immune to the virus’ effect on society. In response to COVID-19’s worldwide
outbreak, on March 12, 2020, Governor Bullock issued an executive order declaring
a state of emergency within Montana. (Doc. 81-8.) Notably, on March 13, 2020,
Governor Bullock amended his prior executive order “to run concurrent to the

Appendix 5a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 5 of 46

emergency declaration of the President of the United States,” after President Donald
J. Trump declared a national state of emergency earlier that day. (Doc. 81-9.)
Currently, both the United States and Montana remain in states of emergency
because of the COVID-19 pandemic.
As Montana’s 2020 primary election approached, Governor Bullock issued a
directive permitting counties to “conduct the June 2 primary election under the mail
ballot provisions of Title 13, Chapter 19.” (Doc. 81-10 at 4.) Pertinent to this case,
Governor Bullock rooted this directive in the suspension power vested in him by
Montana Code Annotated § 10-3-104(2)(a) by suspending Montana Code
Annotated § 13-19-104(3)(a)’s prohibition on the use of mail ballots for a
“regularly scheduled federal . . . election.” (Id. at 2, 4.) Interestingly enough, one
of the Intervenor-Plaintiffs in this case, the Speaker of the Montana House of
Representatives, Greg Hertz, expressed his “full support” for the directive which, in
his view, allowed “counties to choose what is best for their voters and election staff
during this state of emergency.” (Doc. 81-20 at 3.)
Following Montana’s successful June 2, 2020 primary election, which
resulted in a record 55% turnout rate, the Montana Association of Counties and the
Montana Association of Clerk & Recorders wrote to Governor Bullock applauding
his prior directive, and urging him to issue a similar directive for the November 3,
2020 general election. (See generally Doc. 81-2.) On August 6, 2020, Governor

Appendix 6a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 6 of 46

Bullock issued the Directive, which, as with Montana’s primary election, permits,
but does not require, counties to “conduct the November 3, 2020 election under the
mail ballot provisions of Title 13, Chapter 19, MCA.” (Doc. 81-15 at 4.) As with
the prior directive, Governor Bullock relies on the suspension power vested in him
by Montana Code Annotated § 10-3-104(2)(a), to render Montana’s prohibition on
the use of mail ballots for federal elections ineffective. (Id. at 2.) Pursuant to the
Directive, 45 of Montana’s 56 counties have opted to conduct the November 3,
2020 general election by mail ballot.2
II.

Procedural Background

Lead-Plaintiffs filed suit on September 2, 2020 advancing several
constitutional challenges to the Directive. (Doc. 1.) Specifically, Lead-Plaintiffs’
complain that the Directive violates: (1) Article I, Section IV of the United States
Constitution by changing the time, place, and manner of the November 3, 2020
general election without legislative involvement; (2) Article II, § I of the United
States Constitution by changing the manner in which Montana appoints electors for
the November 3, 2020 general election without legislative involvement; and (3)
their rights under the Fourteenth Amendment of the United States Constitution by
facilitating fraud and other illegitimate voting practices. (Doc. 1 at 31–33.)

These 45 counties are home to 680,315 of Montana’s 720,355 registered voters, or 94% of the
State’s total electorate. Of note, the Directive does not abandon in-person voting, which will
occur in all of Montana’s 56 counties.
2

Appendix 7a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 7 of 46

Following the filing of this complaint, the DCCC, DSCC, and the Montana
Democratic party moved to intervene as defendants and Greg Hertz and Scott
Sales, on behalf of the Republican majorities of the Montana House of
Representatives and the Montana Senate, moved to intervene as plaintiffs. (Docs.
28; 33.) The Court permitted such intervention and placed the Plaintiffs’ motion
for preliminary injunctive relief on an expedited schedule. (Doc. 35.) The
Intervenor-Plaintiffs have asserted claims identical to those advanced by the LeadPlaintiffs. (Doc. 38.)
A nearly identical lawsuit was filed by Member-Plaintiffs on September 9,
2020. (Doc. 1.) In that case, the Plaintiffs’ complain that the Directive violates:
(1) Article I, Section IV of the United States Constitution by changing the time,
place, and manner of the November 3, 2020 general election without legislative
involvement; (2) their right to vote by “vote-dilution disenfranchisement” on
account of the “cognizable risk of ballot fraud from mail-ballot elections”; (3) their
right to vote by “direct disenfranchisement” on account of “the sudden surge in
mail in ballots” resulting in “requested ballots never” arriving or arriving too late
and “filled-out ballots” getting lost or delayed in the return process; and (4) their
right to vote and the Equal Protection Clause of the Fourteenth Amendment by
providing greater voting power to voters in counties that elect to send mail ballots
than voters in the 11 counties that do not. (Doc. 1 at 33–38.)

Appendix 8a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 8 of 46

Given the common questions of law and fact that exist in the lead case (CV
20–66–H–DLC) and the member case (CV–20–67–H–DLC), this Court
consolidated the actions. (Doc. 45.) The Court additionally consolidated
determination of the Plaintiffs’ motions for preliminary injunctions (Docs. 2; 8)
with a trial on the merits. (Doc. 69.)3 A hearing on this matter was held on
September 22, 2020.
LEGAL STANDARD
An injunction “is an extraordinary remedy never awarded as of right.”
Winter v. Natural Res. Def. Council, 555 U.S. 7, 24 (2008). In adjudicating
requests for injunctive relief, this Court must “balance the competing claims of
injury and must consider the effect on each party of the granting or withholding of
the requested relief.” Id. In doing so, it is imperative that this Court “pay
particular regard for the public consequences in employing the extraordinary
remedy of injunction.” Id. As outlined below, the injunctive relief Plaintiffs
request would severely impede Montana’s administration of the November 3, 2020
general election.
To obtain the injunctive relief they seek, the Plaintiffs must demonstrate: (1)

3

It also bears noting that the Intervenor-Defendants have moved to dismiss the Lead-Plaintiffs’
complaint (Doc. 1) and for judgment on the pleadings. (Doc. 72.) Because the legal issues
raised in this motion (Doc. 72) share the Court’s analysis with respect to the issuance of
injunctive relief, the Court finds separate analysis of this motion unnecessary.

Appendix 9a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 9 of 46

actual success on the merits; (2) that they have suffered an irreparable injury; (3)
there exists no adequate remedy at law; (4) the balance of the hardships justifies a
remedy in equity; and (5) that the public interest would not be disserved by a
permanent injunction. Independent Training & Apprenticeship Program v.
California Dep’t of Indus. Relations, 730 F.3d 1024, 1032 (9th Cir. 2013) (citing
eBay Inc. v. MerchExch., LLC, 547 U.S. 388, 391 (2006). When the government is
a party, the final two factors merge into one. Drakes Bay Oyster Co. v. Jewell, 747
F.3d 1073, 1092 (9th Cir. 2014).
In applying these elements, the Court is mindful that “[t]he standard for a
preliminary injunction is essentially the same as for a permanent injunction” and
that cases interpreting the preliminary injunction standard apply “with equal force
to . . . permanent injunction cases.” Flexible Lifeline Sys., Inc. v. Precision Lift,
Inc., 654 F.3d 989, 996 (9th Cir. 2011) (internal citations omitted). In considering
these legal standards, the Court finds that the Plaintiffs have failed to carry the
burden necessary to warrant the imposition of permanent injunctive relief.
ANALYSIS
Given the complexity of this action, the Court finds it necessary to discuss
how it categorizes the Plaintiffs and their claims. Plaintiffs can be split into three
distinct groups. The first group, referred to as the “Organizational Plaintiffs,”
consists of the Lead-Plaintiffs and the Ravalli County Republican Central

Appendix 10a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 10 of 46

Committee, a party in the member case (CV–20–67–H–DLC). The Organizational
Plaintiffs are various committees involved in efforts designed to improve
Republican electoral prospects in Montana. (Docs. 1 at 3–5; 1 at 6.)
The second group, referred to as the “Legislative Plaintiffs,” is composed of
the Intervenor-Plaintiffs, including Greg Hertz, Speaker of the Montana House of
Representatives, and Scott Sales, President of the Montana Senate. (Doc. 38 at 4–
5.) Legislative Plaintiffs allege they were authorized by a majority of each
chamber of the Montana Legislature to bring this action. (Id.) Finally, the third
group, referred to as the “Candidate and Voter Plaintiffs,” constitute voters and
candidates (who, critically, also intend to vote) for public office in Montana. (Doc.
1 at 3–4.)
Additionally, the Court finds that some of Plaintiffs’ claims rest on
sufficiently analogous legal grounds to warrant simultaneous attention. First, there
are the “Emergency Powers Claims” which, in essence, allege that the Directive
violates the Elections and Electors Clauses of the United States Constitution, by
permitting Governor Bullock to alter the time, place, and manner of Montana’s
federal elections and process for appointing Presidential electors without
legislative involvement. (See Id. at 33–34; 1 at 31–32; 38 at 18–19.)
Second, there are the “Right to Vote Claims” which are premised on the
contention that the Directive will disenfranchise voters by: (1) opening the door to

Appendix 11a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 11 of 46

voter fraud; and (2) creating such an influx of mail ballots in the postal system that
“requested ballots never arrive or arrive too late and filled-out ballots get lost or
are delayed in the return process.” (See Doc. 1 at 34–37; 1 at 33; 38 at 20–21.)
Third, there is the “Equal Protection Claim,” asserted by the Member-Plaintiffs,
which alleges that the Directive violates the Fourteenth Amendment because voters
in counties that opted to conduct the election by mail ballot have a greater chance
of having their votes counted. (Doc. 1 at 37–38.) Pursuant to this analytical
framework, the Court proceeds first to the issue of jurisdiction.
I.

Jurisdictional Issues.

Defendants have raised the following jurisdictional issues: (1) whether the
Eleventh Amendment bars Plaintiffs’ Emergency Powers Claims; (2) whether
Plaintiffs lack standing to prosecute this action; and (3) whether the Court should
abstain from adjudication. Each issue shall be discussed in turn.
A.

The Eleventh Amendment.

Defendants maintain that Plaintiffs’ Emergency Powers Claims are barred
by the Eleventh Amendment. The Eleventh Amendment provides that “[t]he
Judicial power of the United States shall not be construed to extend to any suit in
law or equity, commenced or prosecuted against one of the United States by
Citizens of another State or by Citizens or Subjects of any Foreign State.” U.S.
Const. amend XI. A literal reading would, of course, compel only the conclusion

Appendix 12a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 12 of 46

that Montana is immune from suits in federal court brought by persons who are not
citizens of Montana. But this is not the law.
Indeed, the Supreme Court has construed the Eleventh Amendment “to stand
not so much for what it says, but for the presupposition” it confirms, namely, that a
state is not “amenable to the suit of an individual without its consent.” Seminole
Tribe of Fla. v. Florida, 517 U.S. 44, 54 (1996) (internal citations omitted). That
is, the Eleventh Amendment is not governed by its text, but rather by “a
recognition that the States, although a union, maintain certain attributes of
sovereignty, including sovereign immunity.” Puerto Rico Aqueduct and Sewer
Auth. V. Metcalf & Eddy, Inc., 506 U.S. 139, 146 (1993). Sovereign immunity acts
a shield, depriving the Court of jurisdiction over suits that are otherwise justiciable.
See Federal Mar. Comm’n v. South Carolina State Ports Auth., 535 U.S. 743, 754
(2002).
But this shield is not impenetrable. Long ago, the Supreme Court carved out
a “necessary exception” to the general rule that the Eleventh Amendment prevents
individuals from suing states in federal court. Puerto Rico, 506 U.S. at 146. In Ex
Parte Young, the Supreme Court held that the Eleventh Amendment does not
preclude prospective enjoinment of a state official for ongoing violations of federal
law. 209 U.S. 123, 155–56 (1908). This exception “gives life to the Supremacy
Clause” by “vindicat[ing] the federal interest in assuring the supremacy” of federal

Appendix 13a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 13 of 46

law. Green v. Mansour, 474 U.S. 64, 68 (1985).
While Ex Parte Young’s general rule has survived, its underlying theory
“has not been provided an expansive interpretation.” Pennhurst State School &
Hosp. v. Halderman, 465 U.S. 89, 102 (1984). In Pennhurst, the Supreme Court
extended (in fact, contracted) its prior Eleventh Amendment jurisprudence by
holding that the Eleventh Amendment prohibits federal courts from ordering state
officials to comply with state law. 465 U.S. at 103–17. Thus, under Pennhurst,
suits brought against state officials in federal court that complain of violations of
state law alone, remain barred by the Eleventh Amendment. More precisely, under
the Eleventh Amendment, federal courts have no business compelling state
officials to comply with state law.
Predictably, the parties disagree on Pennhurst’s application to the present
suit. Defendants contend that although Plaintiffs’ complain of violations of the
federal constitution, the interpretation of state law necessary to resolve the merits
of those complaints renders the claims barred by the Eleventh Amendment. In
other words, Defendants contend that the Plaintiffs have brought claims based
solely on state law under the guise of a federal constitutional claim. Plaintiffs
respond that while their federal claims certainly require this Court’s interpretation
of state law, their claims are firmly rooted in the United States Constitution and are
thus constitutionally permissible under the Eleventh Amendment. The Court finds

Appendix 14a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 14 of 46

Plaintiffs’ position persuasive.
The Supreme Court in Pennhurst acknowledged that the doctrine of Ex
Parte Young exists to, above all else, “promote the vindication of federal rights.”
465 U.S. at 105. With that in mind, the Court finds that it would undercut Ex Parte
Young completely to conclude that simply because a federal constitutional claim
requires the interpretation, or rests on the purported violation of, state law, it
suddenly comes within Pennhurst’s grasp. Indeed, if the presence of underlying
state law issues in a federal constitutional claim was sufficient to deprive this Court
of jurisdiction under Pennhurst, then Ex Parte Young would no longer perform the
necessary function of protecting the supremacy of federal law.
The Plaintiffs complain of violations of federal law and seek an injunction
rectifying the resulting injury. Specifically, in their Emergency Powers Claims,
Plaintiffs contend that Governor Bullock, not the “Legislature,” has altered the
time, place, and manner of Montana’s federal elections in contravention of the
United States Constitution. As addressed at length below, the state law issues
underlying these claims guide but by no means dictate their resolution. Critical to
the outcome of these claims is a determination of what exactly the term
“Legislature” in the Elections and Electors Clauses means—and depending on the
answer— whether injunctive relief halting their violation should issue. This is
quintessentially a federal question. In short, the Court finds Plaintiffs have

Appendix 15a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 15 of 46

asserted proper Ex Parte Young claims and no Eleventh Amendment barrier blocks
adjudication.
B.

Standing.

Defendants maintain Plaintiffs lack standing to prosecute this action. “It is a
fundamental precept that federal courts are courts of limited jurisdiction.” Owen
Equip. & Erection Co. v. Kroger, 437 U.S. 365, 374 (1978). This notion is derived
from the United States Constitution itself, which limits the Court’s subject matter
jurisdiction to justiciable “cases” or “controversies.” U.S. Const., Art. III, § 2.
The federal courts’ limited jurisdiction “is founded in concern about the proper—
and properly limited—role of the courts in a democratic society.” Summers v.
Earth Island Inst., 555 U.S. 488, 492–93 (2009) (internal citations omitted).
As such, it is incumbent upon this Court to ascertain whether subject matter
jurisdiction exists before analyzing the merits of a litigant’s claims. Arbaugh v.
Y&H Corp., 546 U.S. 500, 514 (2006). Indeed, this Court is to presume it is
without jurisdiction to hear a case until a contrary showing is made. Stock West,
Inc. v. Confederates Tribes of the Colville Reservation, 873 F.2d 1221, 1225 (9th
Cir. 1989). Subject matter jurisdiction is “the courts’ statutory or constitutional
power to adjudicate the case.” Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83,
89 (1998). This includes underlying concepts such as standing. In re Palmdale
Hills Prop., LLC, 654 F.3d 868, 873 (9th Cir. 2011). The doctrine of standing

Appendix 16a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 16 of 46

requires “federal courts to satisfy themselves that the plaintiff[s have] alleged such
a personal stake in the outcome of the controversy as to warrant [their] invocation
of federal-court jurisdiction.” Summers, 555 U.S. at 493 (internal citations and
quotation marks omitted).
In order to establish standing, Plaintiffs must show “(1) [they have] suffered
an ‘injury in fact’ that is (a) concrete and particularized and (b) actual or imminent,
not conjectural or hypothetical; (2) the injury is fairly traceable to the challenged
action of the defendant; and (3) it is likely, as opposed to merely speculative, that
the injury will be redressed by a favorable decision.” Friends of the Earth, Inc. v.
Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 180 (2000). Critically, the
threshold question of whether Plaintiffs possess standing “precedes, and does not
require, analysis of the merits.” Maya v. Centex Corp., 658 F.3d 1060, 1068 (9th
Cir. 2011).
Moreover, the “standing analysis which prevents a claim from being
adjudicated for lack of jurisdiction, [cannot] be used to disguise merits analysis,
which determines whether a claim is one for which relief can be granted if
factually true.” Catholic League for Religious and Civil Rights v. City and Cty. of
S.F., 624 F.3d 1043, 1049 (9th Cir. 2010) (en banc). Finally, because Plaintiffs
seek equitable relief, not damages, the Court “need not address standing of each
plaintiff if it concludes that one plaintiff has standing.” Townley v. Miller, 722

Appendix 17a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 17 of 46

F.3d 1128, 1133 (9th Cir. 2013). With this in mind, the Court therefore examines
whether at least one Plaintiff possesses standing.
1.

Organizational Plaintiffs.

Defendants maintain the Organizational Plaintiffs have neither
representational or direct organizational standing. Each is discussed in turn.
i.

Representational Standing

Representational standing exists when an organization’s “members would
otherwise have standing to sue in their own right, the interests at stake are germane
to the organization’s purpose, and neither the claim asserted nor the relief
requested requires the participation of individual members in the lawsuit.” Friends
of the Earth, 528 U.S. at 181. The Plaintiffs do not seem to contest, and the Court
finds, that the interest at stake—ensuring that Republican voters can exercise their
franchise—is germane to the Organizational Plaintiffs’ respective purposes. The
Court can likewise dispose of the third requirement at the outset, because when
injunctive relief is sought, participation of the individual members “is not normally
necessary.” United Food and Commercial Workers Union Local 751 v. Brown
Group, Inc., 517 U.S. 544, 546 (1996). Thus, the Court will focus its analysis on
the first prong of the representational standing inquiry.
Defendants assert that the Organizational Plaintiffs’ members complain of
nothing more than generalized grievances insufficient to confer Article III

Appendix 18a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 18 of 46

standing. The Court agrees, as it must, that generalized grievances do not normally
constitute a particularized injury necessary to establish standing. Novak v. United
States, 795 F.3d 1012, 1018 (9th Cir. 2015). But the fact that “a harm is widely
shared does not necessarily render it a generalized grievance.” Id. (internal
citations and quotation marks omitted). In fact, the Supreme Court has been clear
that “where large numbers of voters suffer interference with voting rights” the
interests related to that are sufficiently concrete to obtain the standing necessary to
seek redress in an Article III Court. F.E.C. v. Akins, 524 U.S. 11, 24 (1998)
(holding that claims implicating voting rights “the most basic of political rights, is
sufficiently concrete and specific” to establish standing); see also Baker v. Carr,
369 U.S. 186, 206–07 (1962) (noting that prior cases have “squarely held that
voters who allege facts showing disadvantage to themselves as individuals have
standing to sue”).
The Court finds that injuries related to voter rights are central to the
Organizational Plaintiffs’ claims and stem directly from issuance of the Directive.
Because the alleged injuries to the members’ voting rights at issue in this case
could conceivably be asserted by any Montanan does not eradicate the standing
necessary to assert these claims. On the contrary, the Supreme Court has
repeatedly enumerated the principle that claims alleging a violation of the right to
vote can constitute an injury in fact despite the widespread reach of the conduct at

Appendix 19a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 19 of 46

issue. In short, the harm complained of here is sufficiently concrete to pass the
Organizational Plaintiffs through the standing gateway necessary to adjudicate
their claims on the merits.4
ii.

Organizational Standing

Even if the Organizational Plaintiffs’ lacked representational standing the
Court finds they similarly enjoy organizational standing. The test of whether an
organizational plaintiff has standing is identical to the three-part test outlined
above normally applied in the context of an individual plaintiff. La Asociacion de
Trabajordores de Lake Forest v. City of Lake Forest, 624 F.3d 1083, 1088 (9th
Cir. 2010). An organization establishes the requisite injury upon a showing of
“both a diversion of its resources and a frustration of its mission.” Id. But, as
Defendants correctly note, the Organizational Plaintiffs cannot simply “spend
money fixing a problem” for the purpose of manufacturing standing. Id. Instead,
the Organizational Plaintiffs are required to demonstrate “it would have suffered
some other injury if it had not diverted resources to counteracting the problem.”
Id. The Court is persuaded the Organizational Plaintiffs have established a
diversion of resources sufficient to confer standing.

The Court likewise finds that this legal conclusion supports a finding of standing for the Voter
and Candidate Plaintiffs, who similarly allege infringements on their right to vote. (Doc. 1 at 3–
4.) Because the Candidate Plaintiffs allege they intend to vote, the Court need not address
whether they possess standing to prosecute their claims as candidates.
4

Appendix 20a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 20 of 46

Defendants contest this form of standing by asserting that Organizational
Plaintiffs have nothing to educate their members about, since the Directive
expands rather than contracts the opportunity to vote. But this assertion cannot
withstand scrutiny. The Directive, while certainly expanding the remote voting
opportunities of Montanans, necessarily contemplates a reduction in available inperson voting opportunities by counties that opt-in to the mail ballot option. (Doc.
81-15 at 5.) As the supplemental declaration provided by the Member-Plaintiffs
establishes, there is a “73% drop in the number of in person polling places open to
Montanans who want to vote in person on Election Day across the state.” (Doc.
109-1 at 3.) This reduction requires the Organizational Plaintiffs’ to expend
resources in an effort to inform their members how individual counties intend to
administer the November 3, 2020 general election and where in-person voting
opportunities are located. As such, the Organizational Plaintiffs’ purpose of
educating Republican voters—especially those who wish to vote in person—on
available voting opportunities is necessarily impacted by the Directive.
Organizational Plaintiffs have provided the Court with declarations to this
effect. For example, the Declaration of Sam Rubino explains how expenditure of
resources is necessary to “inform voters about the directive’s changes” to voting
opportunities, including “when, and where to submit mail-in ballots if they have
never submitted one before; and where to cast a traditional ballot at whatever in-

Appendix 21a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 21 of 46

person polling locations counties may provide.” (Doc. 94-1 at 3.) The remaining
declarations submitted by Ryan Dollar and Spenser Merwin confirm the
expenditure of resources necessary to educate the Organizational Plaintiffs’
members on the Directive’s impact on voting in Montana for the November 3,
2020 general election. (Docs. 93-1 at 3; 93-2 at 3–4.) This is sufficient to confer
the Organizational Plaintiffs with organizational standing. Having found that the
Organizational Plaintiffs and Voter and Candidate Plaintiffs have standing, the
Court possesses the constitutional authority to adjudicate all of the Plaintiffs’
claims on the merits. As such, the Court need not address the standing of
Legislative Plaintiffs, who assert claims identical to that of the Lead-Plaintiffs.
C.

Abstention.

Governor Bullock urges this Court to abstain from resolving Plaintiffs’
claims on the merits under the Pullman abstention doctrine. “The Pullman
abstention doctrine is a narrow exception to the district court’s duty to decide cases
properly before it which allows postponement of the exercise of federal jurisdiction
when ‘a federal constitutional issue . . . might be mooted or presented in a different
posture by a state court determination of pertinent state law.’” C-Y Development
Co. v. City of Redlands, 703 F.2d 375, 377 (9th Cir. 1983). Pullman abstention is
only appropriate upon satisfaction of a three-prong test:

Appendix 22a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 22 of 46

(1)

The complaint “touches a sensitive area of social policy upon
which the federal courts ought not to enter unless no alternative
to its adjudication is open;”

(2)

Such constitutional adjudication plainly can be avoided if a
definitive ruling on the state issue would terminate the
controversy; and

(3)

The possibly determinative issue of state law is doubtful.

Id. In applying these factors, the narrowness of this exception cannot be
understated, and this Court should only abstain “in the exceptional circumstances
where the order to the parties to repair to the state court would clearly serve an
important countervailing interest.” Id. The Court find abstention inappropriate in
this case.
Regarding the first prong, the Court agrees that Plaintiffs’ claims regarding
Montana’s electoral processes touches on a sensitive area of social policy. But it
cannot be said this is an area federal courts are hesitant to enter. On the contrary,
federal courts are routinely tasked with resolving issues related to the state
administration of elections. See, e.g., Crawford v. Marion Cty Election Bd., 553
U.S. 181 (2008). The Court also finds that resolution of the state law issues
underlying this dispute will not terminate the action. On the contrary,
determination of whether Governor Bullock has exceeded his authority under state
law is separate and distinct from the question of whether the provisions providing
such authority comport with the Elections and Electors clauses. This second

Appendix 23a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 23 of 46

question is as essential to the resolution of the Emergency Powers Claims as the
first.
Finally, as discussed at length below, the Court finds that the state law issues
underlying this case are far from uncertain and are readily determinable by the
Court. In short, this is not the unique case in which abstention is justified.
Governor Bullock urges this Court to follow the abstention path paved by the
Western District of Pennsylvania in a similar case. See Trump for President, Inc.
v. Boockvar, 2020 WL 4920952 (W.D. Pa. 2020). But the Court finds this case
distinguishable. While not determinative, a compelling justification for abstention
in Boockvar was the actual existence of state law proceedings that would resolve
the state law issues present in that case. Id. at *18. No party to this action disputes
that time is of the essence. Ballots are set to be mailed on October 9, 2020. (Doc.
81-15 at 4.) The Court does not find it wise to force Plaintiffs to assert identical
claims in state court at this late hour with no promise of timely adjudication.
Potrero Hills Landfill v. County of Solano, 657 F.3d 875, 889–90 (9th Cir. 2011)
(“Federal courts are not required to send a case to the state court if doing so would
simply impose expense and long delay upon the litigants without hope of its
bearing fruit . . . to the contrary, under such circumstances, it is the duty of a
federal court to decide the federal question when presented to it”) (internal

Appendix 24a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 24 of 46

quotation marks and citations omitted). In short, abstention is neither required nor
appropriate in this case.
II.

Injunctive Relief.

Having concluded that the Eleventh Amendment does not bar consideration
of the Plaintiffs’ Emergency Powers Claims, that standing exists, and that
abstention is inappropriate, the Court will adjudicate the claims presented on the
merits. As noted above, in order to obtain injunctive relief, Plaintiffs must
demonstrate: (1) actual success on the merits; (2) that they have suffered an
irreparable injury; (3) there exists no adequate remedy at law; and (4) the balance
of the hardships justifies a remedy in equity and the public interest would not be
disserved by a permanent injunction. Independent Training, 730 F.3d at 1032;
Jewell, 747 F.3d at 1092.5 Each element is discussed in turn.
A.

Actual Success on the Merits.
i.

Emergency Powers Claims.

The United States Constitution provides, in relevant part, that the “Times,
Places and Manner of holding Elections for Senators and Representatives, shall be
prescribed in each State by the Legislature thereof.” U.S. Const., art. I, § 4, cl. 1.
Additionally, Article II mandates that “Each State shall appoint, in such Manner as

5

The Court notes that Plaintiffs also request declaratory relief to the effect that the Declaration is
unconstitutional. However, because the issuance of this relief is dependent on Plaintiffs’ actual
success on the merits, the Court finds separate analysis of these claims unnecessary.

Appendix 25a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 25 of 46

the Legislature thereof may direct, a Number of Electors, equal to the whole
Number of Senators and Representatives to which the State may be entitled in the
Congress . . . .” Id., art. II, § 1, cl. 2.
Plaintiffs contend that the Directive violates these clauses by altering the
manner in which Montana conducts the November 2, 2020 general election
through executive fiat rather than legislative action. In support of their argument,
Plaintiffs invoke a myriad of provisions of the Montana Code Annotated which
they contend either fail to permit or outright prohibit Governor Bullock from
issuing the Directive. The Defendants maintain that not only has Governor
Bullock acted well within the authority conferred on him by the Montana
Legislature, but that this delegation of power does not offend the Elections or
Electors Clauses.
Resolution of these claims requires the Court to analyze the relevant
statutory framework under which Montana conducts its elections and by which
Governor Bullock purports to act. In doing so, the critical question becomes
whether the Montana Legislature has, in its laws governing the manner in which
federal elections are administered, permitted Governor Bullock to authorize
counties to conduct such elections, in part, by mail ballot. The Court is convinced
it has.
As a starting point, the Court notes that the Montana Constitution provides

Appendix 26a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 26 of 46

that the “legislature shall provide by law the requirements for . . . administration of
elections.” Mont. Const. art. IV, § 3. In exercise of this constitutional command,
the Montana Legislature has adopted a comprehensive framework of laws
governing the electoral process. Relevant here are the provisions outlining the
process by which elections can be conducted by mail. In passing such laws, the
Montana Legislature stated:
The purpose of this chapter is to provide the option of and procedures
for conducting certain specified elections as mail ballot elections. The
provisions of this chapter recognize that sound public policy
concerning the conduct of elections often requires the balancing of
various elements of the public interest that are sometimes in conflict.
Among these factors are the public’s interest in fair and accurate
elections, the election of those who will govern or represent, and costeffective administration of all functions of government, including the
conduct of elections. The provisions of this chapter further recognize
that when these and other factors are balanced, the conduct of
elections by mail ballot is potentially the most desirable of the
available options in certain circumstances.
Mont. Code Ann. § 13-19-101.
Notably, the provisions of Montana law permitting an election to be
conducted by mail-ballot provide that “a regularly scheduled federal, state, or
county election” cannot “be conducted by mail ballot.” Mont. Code Ann. § 13-19104(3)(a). Montana’s statutory framework regarding the administration of
elections cannot be read in isolation, however, and particular attention to the
emergency powers afforded to the Governor must be paid. Specifically, the
Montana Legislature has provided Governor Bullock with the power to “suspend

Appendix 27a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 27 of 46

the provisions of any regulatory statute prescribing the procedures for conduct of
state business or orders or rules of any state agency if the strict compliance with
the provisions of any statute, order, or rule would in any way prevent, hinder, or
delay necessary action in coping with the emergency or disaster.” Mont. Code
Ann. § 10-3-104(2)(a).
Emergency is defined as “imminent threat of a disaster causing immediate
peril to life or property that timely action can avert or minimize.” Id. § 10-3103(8). Disaster is defined as “the occurrence or imminent threat of widespread or
severe damage, injury, or loss of life or property resulting from any . . . outbreak of
disease.” Id. 10-3-103(4). The Court has no trouble concluding that the COVID19 pandemic constitutes a disaster and emergency within the meaning of the
aforementioned statutes. As such, the Court must determine whether Governor
Bullock has exceeded his authority under Montana Code Annotated § 10-3104(a)(2).
The parties devote significant argument to whether the statute in question,
Montana Code Annotated § 13-19-104, is regulatory and therefore falls within
Governor Bullock’s suspension power conferred on him through Montana Code
Annotated § 10-3-104(a)(2). Plaintiffs urge this Court to construe “regulatory”
narrowly, limiting the term to licensing statutes or other public service laws
enacted pursuant to Montana’s inherent police powers. Defendants argue for a

Appendix 28a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 28 of 46

broader reading, characterizing regulatory statutes as those which apply to the
conduct of state actors.
Statutes governing the electoral process are by their very nature regulatory.
Anderson v. Celebrezze, 460 U.S. 780, 788 (1983) (construing Ohio’s statutory
deadline for candidacy statements as part of its “regulation of elections” and
exercise of the state’s “important regulatory interests”); Burdick, 504 U.S. at 433–
34 (interpreting Hawaii’s statutory framework regarding write-in voting as a facet
of “the State’s important regulatory interests . . . .”); Crawford, 553 U.S. at 203
(referring to Indiana’s voter identification statute as a “neutral, nondiscriminatory
regulation of voting procedure”).
Indeed, the statute at issue does not permit the Governor to suspend any
regulatory statute, but rather only those regulatory statutes that prescribe “the
procedures for conduct of state business.” Mont. Code Ann. § 10-3-104(2)(a).
None of the cases relied on by Plaintiffs interpret the reach of the Governor’s
suspension power. Instead, Plaintiffs point to a series of Montana cases using the
words “regulatory statute” completely divorced from the situation at hand and the
powers at play. One case for example, characterizes the Montana Unfair Trade
Practices Act as a “regulatory statute.” Mark Ibsen, Inc. v. Caring for Montanans,
Inc., 371 P.3d 446, 455. But Mark Ibsen refers to the Montana Unfair Trade
Practices Act which regulates “trade practices in the business of insurance,” not the

Appendix 29a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 29 of 46

conduct of state business. Id.; see also Mont. Code Ann. § 33-18-101. The failure
to connect the word regulatory to “conduct of state business” severely undermines
Plaintiffs’ proposed interpretation.
The Court is convinced that the statute at issue here, Montana Code
Annotated § 13-19-104(3)(a), which forbids local officials from conducting a
“regularly scheduled federal, state or county election” by mail ballot, is precisely
the sort of regulatory statute that falls within Governor Bullock’s statutory
suspension power. After all, the administration of federal, state, and local elections
is quintessentially state business. See Clingman v. Beaver, 544 U.S. 581, 586
(2005) (noting that the Constitution “grants States broad power to prescribe the
Times, Places and Manner of holding Elections for Senators and Representatives . .
. which power is matched by state control over the election process for state
offices”) (internal citations and quotation marks omitted). As discussed below, the
Court has no trouble concluding that suspension of Montana Code Annotated § 1319-104(3)(a) is necessary to facilitate Montana’s effective response to the COVID19 pandemic. The provisions on which Governor Bullock relies in issuing the
Directive not only provide him with such authority, but likewise constitute a
fundamental part of the legislative enactments governing the time, place, and
manner of elections in Montana and how electors are appointed.
But this does not end the matter, because there is the additional question of

Appendix 30a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 30 of 46

whether such delegation by the Montana Legislature to Governor Bullock is
constitutional. Resolution of this question depends on the meaning of the term
“Legislature” as used in the Elections and Electors Clauses. As an initial matter,
the Court finds no need to distinguish between the term “Legislature” as it is used
in the Elections Clause as opposed to the Electors Clause. Not only were both
these clauses adopted during the 1787 Constitutional Convention, but the clauses
share a “considerable similarity.” Arizona State Legis. v. Arizona Indep.
Redistricting Comm’n, 576 U.S. 787, 839 (2015) (Roberts, J., dissenting).
Additionally, “[w]herever the term ‘legislature’ is used in the Constitution, it
is necessary to consider the nature of the particular action in view” before
affording it a certain meaning. Smiley v. Holm, 285 U.S. 355, 366 (1932). With
this in mind, the Court finds that the term “Legislature” is used in a sufficiently
similar context in both clauses to properly afford the term an identical meaning in
both instances. Specifically, the term “Legislature” as used in both clauses refers
to a state’s legislative function as opposed to the term’s use in other places in
reference to an electoral, ratifying, or consenting function. Id. at 365–66. As such,
the Court conducts a singular analysis in resolving both constitutional questions.
A survey of the relevant case law makes clear that the term “Legislature” as
used in the Elections Clause is not confined to a state’s legislative body. On the
contrary, nearly a century ago the Supreme Court concluded that the term

Appendix 31a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 31 of 46

“Legislature did not mean the representative body alone” but also “a veto power
lodged in the people” by way of the Ohio Constitution’s referendum process.
Davis v. Hildebrant, 241 U.S. 565, 566–70 (1916). The Supreme Court followed
the trajectory established by Davis several years later in Smiley v. Holm, where it
concluded that the term “Legislature” in the Elections Clause did not “preclude[] a
state from providing that legislative action in districting the state for congressional
elections shall be subject to the veto power of the Governor as in other cases of the
exercise of the lawmaking power.” 285 U.S. 355, 372–73 (1932). Thus, after
Davis and Smiley it was clear that the term “Legislature” in the Elections Clause
included not only a state’s lawmaking body, but also the citizens’ referendum
power and the Governor’s veto.
The Supreme Court expanded, rather than abandoned, this interpretation of
the term “Legislature” just five years ago. There, the Supreme Court concluded
that the term “Legislature” in the Elections Clause also encompasses an
independent redistricting commission utilized by Arizona to draw congressional
districts. Arizona State Legis., 576 U.S. at 804–09. In doing so, the Supreme
Court concluded the Elections Clause “respect[s] the State’s choice to include” the
people’s referendum power, the Governor’s veto, and an independent restricting
commission in decisions regarding the times, places, and manners of federal
elections. Id. at 807.

Appendix 32a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 32 of 46

Upon review of these cases, the Court finds no reason to conclude that the
Montana Legislature’s decision to afford the Governor’s statutory suspension
power a role in the time, place, and manner of Montana’s federal elections should
not be afforded the same respect. In other words, Governor Bullock’s use of the
legislatively created suspension power is not repugnant to the constitutional
provisions invoked by Plaintiffs.6 As such, the Court finds that the Directive
violates neither the Elections or Electors clause of the United States Constitution
and judgment in favor of the Defendants on this claim is appropriate.
ii.

Right to Vote Claims.

While not specifically enumerated, “[u]ndeniably the Constitution of the
United States protects the right of all qualified citizens to vote, in state as well as in
federal elections.” Reynolds v. Sims, 377 U.S. 533, 554 (1964). This right is
“individual and personal in nature.” Gill v. Whitford, 138 S. Ct. 1916, 1930
(2018). Additionally, this right “can neither be denied outright . . . nor destroyed

Plaintiffs reference in passing Article III, § 1 of the Montana Constitution which forbids “the
exercise of power properly belonging to one branch” by another. But not only have Plaintiffs
failed to assert a stand alone claim under the Montana Constitution, jurisdictional issues
attendant to such a claim aside, this constitutional provision does not require “absolute
independence” which “cannot exist in our form of government.” Powder River Cty v. State, 60
P.3d 357, 231–32 (Mont. 2002). On the contrary, this provision “has never been accepted as an
absolute principle in practice” and is designed to prevent “a single branch from claiming or
receiving inordinate power” rather than “bar[ring] cooperative action among the branches of
government.” Id. at 232. Cooperative action in the administration of elections and response to
an emergency are exactly what has occurred here. As such, the Court has serious doubts about
the merits of a state constitutional claim, assuming it had properly been raised in this case.
6

Appendix 33a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 33 of 46

by alteration of ballots . . . nor diluted by ballot-box stuffing.” Reynolds, 377 U.S.
at 554. The parties have focused their argument on whether a claim for vote
dilution rooted in the United States Constitution is cognizable. The Court finds
such an analysis to be unnecessary because, even assuming such a claim exists,
Plaintiffs have not even attempted to introduce the requisite evidence necessary to
prevail.
The Plaintiffs maintain that because the Directive permits counties to
conduct the November 3, 2020 general election by mail ballot, this election will be
ripe with fraud and thus result in unconstitutional disenfranchisement of a both
direct and dilutive nature. Yet, Plaintiffs have not introduced even an ounce of
evidence supporting the assertion that Montana’s use of mail ballots will inundate
the election with fraud. Indeed, as indicated at the beginning of this Order, at the
September 22, 2020 hearing on the merits, counsel for both the Member-Plaintiffs
and Lead-Plaintiffs conceded they do not possess any evidence establishing prior
incidents of voter fraud in Montana, which has an established and well used
absentee voting system. The Court is thoroughly unconvinced that will change in
counties electing into the Directive’s mail ballot option.
The record is replete with evidence that Montana’s elections and the use of
mail ballots present no significant risk of fraud. The Declaration of Dr. Michael
Herron is particularly enlightening. There, Dr. Herron concludes that there is

Appendix 34a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 34 of 46

absolutely no evidence that deliberate voter fraud has occurred in Montana from
2012 to 2020. (Doc. 75-2 at 21.) Particularly, Dr. Herron concludes that “[v]oter
fraud of all types is rare in the United States and rare in Montana as well.” (Id.)
Upon systematic dissection of the Lead-Plaintiffs’ motion (Doc. 8), Dr. Herron
concludes that they have failed to “establish a compelling likelihood that voter
fraud will occur in Montana if this state uses universal vote-by-mail in the
November election.” (Doc. 75-2 at 22.)
The Court also agrees that “[t]he most appropriate comparison election for
the upcoming, statewide November 2020 General Election in Montana is the
statewide, June 2020 Primary election in Montana” in which no evidence of voter
fraud has been uncovered. (Id. at 34, 37.) The declarations provided by Governor
Bullock from three election officials in Montana fortifies the conclusion that a
county’s use of mail ballots does not meaningfully increase the already nominal
risk of voter fraud in this State. (Docs. 81-3 at 4; 81-4 at 5.) The IntervenorDefendants have similarly provided the Court with deposition testimony from
various state officials confirming the lack of prior voter fraud in Montana. (Doc.
75-5 at 4, 9–10; 75-6 at 4–6; 75-7 at 4–5; 75–8 at 3–5.)
Additionally, the Court finds no reason to believe that the electoral
safeguards designed to protect the integrity of Montana’s elections and prevent
fraud will not operate as they have in the past. These include, but are not limited

Appendix 35a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 35 of 46

to, Montana’s proscription on voting twice in one election, Montana’s ban on
fraudulent voter registration, and the required signature verification upon receipt of
a mail ballot. Mont. Code Ann. §§ 13-13-241, 13-19-309, 13-35-209, 13-35210(1). None of these statutory provisions have been suspended by Governor
Bullock’s Directive.
The Member-Plaintiffs point to the Supreme Court’s dicta in Crawford as
conclusive evidence of voter fraud. (Doc. 3 at 3.) But Crawford does not limit its
discussion of possible voter fraud to mail ballots. Instead, Crawford discusses
prior instances of voter fraud in the registration, in-person voting, and absentee
voting contexts. 553 U.S. at 194–95, ns. 11–13. Additionally, the Supreme Court
in Crawford did not deploy its discussion of voter fraud to invalidate an entire
electoral scheme—as Plaintiffs seek to do here—but rather to justify the imposition
of the exact sort of safeguards previously discussed. Id. at 196.
Furthermore, if reliance on Crawford alone without any supporting evidence
were enough, it is unclear how our republic could be expected to conduct elections
at all. Litigants could simply attack any electoral structure as inviting fraud and
thus offensive of the constitutional rights Plaintiffs invoke here. Such a result
would cripple our great democratic experiment and bolster forces determined on
thwarting popular government. In the final analysis, the Court finds that Plaintiffs
have not established that the use of mail ballots by Montana counties will introduce

Appendix 36a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 36 of 46

any meaningful level of fraudulent behavior into the election that could possibly
rise to the level of a constitutional violation.
The Lead-Plaintiffs also allege that the Directive infringes on the right to
vote because the “sudden surge in mail ballots” will result in requested ballots
never arriving, arriving too late, or completed ballots getting lost or delayed in the
return process. But this contention suffers from the same fatal flaw as that based
on voter fraud, an utter lack of any supporting evidence. The Plaintiffs have failed
to provide any proof that Montana’s mail system will be unable to process an
influx in ballots. It takes more than mere supposition to prevail on the merits.
Plaintiffs’ claim regarding errors in the mail system suffers the same fate as those
rooted in voter fraud.
iii.

Equal Protection Claim.

The Member-Plaintiffs’ Equal Protection Claim lacks clarity. In their
complaint, the Member-Plaintiffs rely on the Court’s holding in Bush v. Gore and
allege that because “46 of 56 Montana counties have filed mail-ballot plans,” if
such plans are approved “voters in the 46 counties will have greater voting power
than other-county voters.” (Doc. 1 at 38.)7 The complaint further alleges that the
Directive “enhances the odds of voters in counties adopting” it of “being able to

7

As noted in this Order, the number of counties currently opting in under the Directive is 45 not
46.

Appendix 37a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 37 of 46

vote and have their voices counted” and “[a]s a result, proportionally more votes
will be obtained from in-Plan counties than from other counties—with the
difference not being accounted for by population differences.” (Id.)
The briefing submitted by Member-Plaintiffs fails to further illuminate the
argument, simply contending that the Directive is a “disparate-power Plan” that
provides some voters with greater voting power. (Doc. 91 at 12.) At oral
argument, counsel for Member-Plaintiffs confused the issue by characterizing their
equal protection argument as being rooted in the risk of voter fraud attached to the
use of mail ballots. To the extent voter fraud plays a role in the Equal Protection
Claim, which is not clear from the face of the complaint, such a claim can be easily
disregarded for the reasons discussed above, again the complete absence of any
evidence establishing that voter fraud has occurred in the past or is likely to occur
by way of the Directive in Montana.
In Bush v. Gore, the Supreme Court reiterated the longstanding principle that
“one group can be granted greater voting strength than another is hostile to the one
man, one vote basis of our representative government.” 531 U.S. 98, 107 (2000).
Particularly, the Supreme Court held that “[e]qual protection applies” to the right
to vote and “[h]aving once granted the right to vote on equal terms, the State may
not, by later arbitrary and disparate treatment, value one person’s vote over that of
another.” Id. at 104–05. Applying these principles, the Supreme Court found that

Appendix 38a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 38 of 46

the Florida Supreme Court’s ratification of disparate standards used by counties to
determine what is or is not a valid vote resulted in the arbitrary and disparate
treatment forbidden by the Equal Protection Clause. Id. at 104–09. The Court
finds no such equal protection issue here.
First, the Supreme Court was clear in Bush v. Gore that the question was not
“whether local entities, in the exercise of their expertise, may develop different
systems for implementing elections.” Id. at 109. Yet this is precisely the conduct
of which the Member-Plaintiffs now complain. The crux of their argument, as pled
in their complaint, is that the use of a mail ballot system by some counties and not
others results in unconstitutionally disparate treatment. The Court agrees with
Governor Bullock’s argument that few (if any) electoral systems could survive
constitutional scrutiny if the use of different voting mechanisms by counties
offended the Equal Protection Clause.
Second, in any event, the Court finds Member-Plaintiffs’ complaints of
disparate and unequal treatment unfounded. The Directive makes clear that even
in counties electing to opt into Montana’s mail ballot procedure for the November
3, 2020 general election, in-person voting opportunities will remain available.
(Doc. 81-15 at 3.) Additionally, the Member-Plaintiffs have not introduced any
evidence that the 11 Montana counties electing to conduct the election without the
use of mail ballots are utilizing procedures that render voters in those counties less

Appendix 39a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 39 of 46

likely to have their votes cast. Likewise, nothing in the record supports the claim
that the counties who have opted to proceed under the Directive are more likely to
permit their citizens to successfully cast a ballot. As such, the Directive does not
condone or facilitate any disparate treatment of Montana voters, and instead, is
designed to ensure that all eligible Montanans can vote in the upcoming election.
In sum, the Member-Plaintiffs Equal Protection Claim is without merit.
As the foregoing illustrates, Plaintiffs do not enjoy actual success on the
merits of any of their claims. This conclusion alone precludes Plaintiffs’ request
for injunctive relief. See Confederated Tribes & Bands of Yakama Nation v.
Yakama Cty., 963 F.3d 982, 993 (9th Cir. 2020) (concluding that Yakama Nation
was not entitled to a permanent injunctive after failing to show actual success on
the merits). Nonetheless, the Court finds it prudent to address the remaining
factors.
B.

Irreparable Injury.

To establish this factor, Plaintiffs must demonstrate that they have suffered
irreparable injury. It is not lost on this Court that constitutional violations are often
sufficient in and of themselves to establish irreparable harm. Goldie’s Bookstore,
Inc. v. Superior Court of Cal., 739 F.2d 466, 472 (9th Cir. 1984); Associated Gen.
Contractors of Cal., Inc. v. Coalition for Econ. Equity, 950 F.2d 1401, 1412 (9th
Cir. 1991). As noted above, the entirety of Plaintiffs’ claims consist of purported

Appendix 40a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 40 of 46

constitutional violations. But, as discussed at length, none of these claims are
meritorious. Thus, Plaintiffs have not suffered any irreparable injury.
Consequently, this factor weighs in Defendants’ favor.
C.

Adequacy of Remedies at Law.

In analyzing this factor, the Court notes that “unlike monetary injuries,
constitutional violations cannot be adequately remedied through damages.”
Stormans, Inc. v. Selecky, 586 F.3d 1109, 1138 (9th Cir. 2009) (internal citations
and alterations omitted). This notion, of course, depends on the actual finding of a
constitutional violation, which is not present in this case. Having found no
constitutional violation, the Court holds that Plaintiffs are not entitled to any relief,
equitable or otherwise.
D.

Balance of Hardships and Public Interest.

In conducting the final injunctive inquiry, this Court heeds the Supreme
Court’s warning against changing the rules of the game on the eve of an election.
Republican Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205, 1207
(2020) (internal citations omitted). This warning necessarily cautions against the
issuance of injunctive relief in this case, just days before ballots are to be mailed
by counties who have elected to utilize the mail ballot procedures authorized by the
Directive.
Indeed, federal courts have time and time again been cautioned against

Appendix 41a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 41 of 46

injecting themselves into the electoral process. See, e.g., Southwest Voter
Registration Educ. Project v. Shelley, 344 F.3d 914, 918 (9th Cir. 2003) (holding
“[t]here is no doubt that the right to vote is fundamental, but a federal court cannot
lightly interfere with or enjoin a state election”). In fact, “[t]he decision to enjoin
an impending election is so serious that the Supreme Court has allowed elections to
go forward even in the face of an undisputed constitutional violation.” Id.
(collecting authority).
This restraint on the issuance of injunctive relief is unsurprising, because
ultimately an “injunction is a matter of equitable discretion; it does not follow from
success on the merits as a matter of course.” Winter, 555 U.S. at 32. Accordingly,
even if Plaintiffs’ had actually succeeded on the merits of their claims, which they
have not, it does render the issuance of an injunction preordained. On the contrary,
the Court is compelled to carefully balance the equities and the public interest
before awarding the extraordinary relief Plaintiffs’ seek. In doing so, the Court
finds that this factor weighs strongly in the Defendants’ favor.
The evidence in the record demonstrates that issuance of the injunctive relief
sought by Plaintiffs would have profound, and most likely catastrophic
consequences on the administration of Montana’s general election. Election
officials have extensively outlined the nearly insurmountable challenges which
would arise should the Court enjoin enforcement of the Directive. These include:

Appendix 42a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 42 of 46

(1) the impossibility of procuring, training, and certifying the competency of the
election judges necessary to administer an election in the absence of mail ballot
procedures; (2) the logistical nightmare posed by completely reversing course at
this late hour and moving from a mail ballot to traditional election administration;
and (3) the difficulty, harm to election integrity, and resulting confusion that would
occur if counties had to notify their citizens of the abrupt last minute change to
available voting opportunities. (Docs. 81-3 at 2–3; 81-4 at 2–4; 81-15 at 7–13.)
These concerns are well founded and provide strong equitable and public interest
considerations against enjoinment of the Directive.
This Court finds that it would not only be unequitable, but also strongly
against the public interest, to upset the current election procedures of 45 Montana
counties just days before mail ballots are to be sent to registered voters. Those 45
counties would be forced, likely in vain, to quickly develop the electoral
infrastructure necessary to administer the general election under normal conditions.
The result is the possible disenfranchisement of thousands of Montana voters who
as of the date of this Order, are operating under the belief that they will shortly
receive a ballot in the mail. Issuance of an injunction presumes counties could
successfully notify these voters of the need to apply for an absentee ballot (which
may not be successfully processed in time) in order to vote from the safety of their
home or that these voters will be willing to brave the pandemic and exercise their

Appendix 43a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 43 of 46

franchise in person. Both are unlikely. As such, the injunction Plaintiffs’ seek
would likely bring about significant disenfranchisement.
Irrespective of these administrative issues, the Court also finds that
enjoinment of the Directive would only accelerate the outbreak of COVID-19
which Montana now faces. Contrary to Plaintiffs’ assertions that Montana is out of
the woods and free from the virus that continues to cripple society across the globe,
Montana continues to struggle with outbreaks across the state. In fact, as of
September 29, 2020, and as the following graph indicates, Montana’s COVID-19
cases continue to rise, with a commensurate increase in deaths.

Montana Covid Map and Case Count, N.Y. TIMES, https://nyti.ms/2R3F2S9 (last
visited September 29, 2020). It is not hard to imagine that enjoinment of the
Directive would vastly increase the number of Montanans exercising their

Appendix 44a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 44 of 46

franchise in person during the election. Given the contraction of available inperson voting opportunities, this influx of in person voters would obviously hasten
the already increasing spread of COVID-19 infections in Montana.
Indeed, these health concerns were the primary basis on which Governor
Bullock rooted the Directive. (Doc. 81-15 at 2–3.) Evidence submitted in this case
raises compelling public health concerns stemming from enjoinment of the
Directive. (See, e.g., Doc. 81-1 at 6.) The Declaration of Dr. Gregory Holzman,
for example, outlines at length the safety measures necessary to safely conduct an
election by predominately in-person voting. (Doc. 81-5 at 5–6.) In the end,
however, Dr. Holzman concludes that “last minute changes that eliminate mail
voting would require substantial effort by election administrators to provide for
high-density, crowded polling place election procedures that satisfy the” necessary
safety measures. (Id. at 7.)
Governor Bullock has provided the Court with a declaration from a resident
of Cascade County, Montana who intends to vote in the upcoming election. (Doc.
81-6 at 2.) Because of this voter’s health conditions, voting in person is simply not
possible. (Id. at 2–3.) Enjoining the Directive would effectively disenfranchise
this voter, who, based on the administrative issues outlined above, would unlikely
be able to successfully register for and receive an absentee ballot prior to election
day. This voter does not exist in isolation, and in-person voting by his family

Appendix 45a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 45 of 46

members and friends, which would be increasingly likely if the Directive was
enjoined, would vastly increase his own risk of viral exposure with possibly deadly
consequences. (Id.) These concerns are likely not unique and apply with equal
force to many Montanans, who either themselves or a loved one suffer from a
medical condition for which COVID-19 exposure poses a grave risk.
Ultimately, considerations of public health weigh strongly against the
issuance of an injunction, even if Plaintiffs’ claims were meritorious. Having
weighed the requisite factors, the Court concludes that Plaintiffs are not entitled to
injunctive relief. Because they have not actually succeeded on the merits of any of
their claims, the Court additionally finds that they are not entitled to any of the
relief they seek. As such, judgment in favor of the Defendants in both the lead and
member cases is warranted.
Accordingly, IT IS ORDERED that the Plaintiffs’ requests for injunctive,
declaratory, or any other form of relief are DENIED.
IT IS FURTHER ORDERED that judgment in both the lead case (CV 20–
66–H–DLC) and the member case (CV–20–67–H–DLC) shall be entered in the
Defendants’ favor.
IT IS FURTHER ORDERED that all pending motions are DENIED as
moot.
The Clerk of Court is directed to enter judgments in the lead and member

Appendix 46a

Case 6:20-cv-00067-DLC Document 73 Filed 09/30/20 Page 46 of 46

cases by separate documents and close the case files.
DATED this 30th day of September, 2020.

Appendix 47a

Case 6:20-cv-00067-DLC Document 75 Filed 09/30/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION
DONALD J. TRUMP FOR
PRESIDENT, INC., REPUBLICAN
NATIONAL COMMITTEE;
NATIONAL REPUBLICAN
SENATORIAL COMMITTEE;
MONTANA REPUBLICAN STATE
CENTRAL COMMITTEE,

CV 20–66–H–DLC
(Consolidated with Case No. CV–
20–67–H–DLC)

JUDGMENT

Plaintiffs,
and
GREG HERTZ, in his official capacity
as Speaker of the Montana House of
Representatives; SCOTT SALES, in
his official capacity as President of the
Montana Senate, on behalf of the
Majorities of the Montana House of
Representatives and the Montana
Senate,
IntervenorPlaintiffs,
vs.
STEPHEN BULLOCK, in his official
capacity as Governor of Montana;
COREY STAPLETON, in his official
capacity as Secretary of State of
Montana,
Defendants,
and

Appendix 48a

Case 6:20-cv-00067-DLC Document 75 Filed 09/30/20 Page 2 of 2

DSCC, DCCC, and MONTANA
DEMOCRATIC PARTY,
IntervenorDefendants.

Jury Verdict. This action came before the Court for a trial by jury. The
issues have been tried and the jury has rendered its verdict.
X Decision by Court. This action came before the Court for bench trial,
hearing, or determination on the record. A decision has been rendered.
IT IS ORDERED AND ADJUDGED That Judgment is entered in favor of
the Defendants and against the Plaintiffs.
Dated this 30th day of September 2020.
TYLER P. GILMAN, CLERK
By: /s/ Heidi Gauthier
Heidi Gauthier, Deputy Clerk

2
Appendix 49a

Case 6:20-cv-00067-DLC Document 79 Filed 09/30/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION
DONALD J. TRUMP FOR
PRESIDENT, INC., REPUBLICAN
NATIONAL COMMITTEE;
NATIONAL REPUBLICAN
SENATORIAL COMMITTEE;
MONTANA REPUBLICAN STATE
CENTRAL COMMITTEE,

CV 20–66–H–DLC
(Consolidated with Case No. CV–
20–67–H–DLC)

ORDER
Plaintiffs,
and
GREG HERTZ, in his official capacity
as Speaker of the Montana House of
Representatives; SCOTT SALES, in
his official capacity as President of the
Montana Senate, on behalf of the
Majorities of the Montana House of
Representatives and the Montana
Senate,
IntervenorPlaintiffs,
vs.
STEPHEN BULLOCK, in his official
capacity as Governor of Montana;
COREY STAPLETON, in his official
capacity as Secretary of State of
Montana,
Defendants,
and

Appendix 50a

Case 6:20-cv-00067-DLC Document 79 Filed 09/30/20 Page 2 of 2

DSCC, DCCC, and MONTANA
DEMOCRATIC PARTY,
IntervenorDefendants.

Before the Court is Member-Plaintiffs’ motion for an expedited injunction
pending appeal. (Doc. 77.) The Court has already concluded Member-Plaintiffs’
claims have no merit. (Doc. 112 at 39.) As such, injunctive relief is not
appropriate.
Accordingly, IT IS ORDERED that Member-Plaintiffs’ request for an
injunction pending appeal (Doc. 77) is DENIED.
DATED this 30th day of September, 2020.

Appendix 51a

U.S. Constitution
U.S. Constitution Article I, § 4, clause 1
The Times, Places and Manner of holding Elections for Senators and Representatives, shall
be prescribed in each State by the Legislature thereof; but the Congress may at any time by Law
make or alter such Regulations, except as to the Places of chusing Senators.
First Amendment
Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government for a redress of grievances.
Fourteenth Amendment
Section 1. All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal protection of the
laws.
Section 2. Representatives shall be apportioned among the several States according to their
respective numbers, counting the whole number of persons in each State, excluding Indians not
taxed. But when the right to vote at any election for the choice of electors for President and Vice
President of the United States, Representatives in Congress, the Executive and Judicial officers
of a State, or the members of the Legislature thereof, is denied to any of the male inhabitants of
such State, being twenty-one years of age, and citizens of the United States, or in any way
abridged, except for participation in rebellion, or other crime, the basis of representation therein

Appendix 52a

shall be reduced in the proportion which the number of such male citizens shall bear to the whole
number of male citizens twenty-one years of age in such State.
Section 3. No person shall be a Senator or Representative in Congress, or elector of
President and Vice President, or hold any office, civil or military, under the United States, or
under any State, who, having previously taken an oath, as a member of Congress, or as an officer
of the United States, or as a member of any State legislature, or as an executive or judicial officer
of any State, to support the Constitution of the United States, shall have engaged in insurrection
or rebellion against the same, or given aid or comfort to the enemies thereof. But Congress may
by a vote of two-thirds of each House, remove such disability.
Section 4. The validity of the public debt of the United States, authorized by law, including
debts incurred for payment of pensions and bounties for services in suppressing insurrection or
rebellion, shall not be questioned. But neither the United States nor any State shall assume or pay
any debt or obligation incurred in aid of insurrection or rebellion against the United States, or
any claim for the loss or emancipation of any slave; but all such debts, obligations and claims
shall be held illegal and void.
Section 5. The Congress shall have power to enforce, by appropriate legislation, the
provisions of this article.
Montana Constitution
Mont. Const. art. III, § 1 – Separation of powers
The power of the government of this state is divided into three distinct branches--legislative,
executive, and judicial. No person or persons charged with the exercise of power properly
belonging to one branch shall exercise any power properly belonging to either of the others,
except as in this constitution expressly directed or permitted.

Appendix 53a

Mont. Const. art. IV, § 3 – Elections
The legislature shall provide by law the requirements for residence, registration, absentee
voting, and administration of elections. It may provide for a system of poll booth registration,
and shall insure the purity of elections and guard against abuses of the electoral process.
Montana Statues Annotated
MCA 10-3-104 – General authority of governor
(1) The governor is responsible for carrying out parts 1 through 4 of this chapter.
(2) In addition to any other powers conferred upon the governor by law, the governor may:
(a) suspend the provisions of any regulatory statute prescribing the procedures for conduct
of state business or orders or rules of any state agency if the strict compliance with the
provisions of any statute, order, or rule would in any way prevent, hinder, or delay
necessary action in coping with the emergency or disaster;
(b) direct and compel the evacuation of all or part of the population from an emergency or
disaster area within the state if the governor considers this action necessary for the
preservation of life or other disaster mitigation, response, or recovery;
(c) control ingress and egress to and from an incident or emergency or disaster area, the
movement of persons within the area, and the occupancy of premises within the area.
(3) Under this section, the governor may issue executive orders, proclamations, and regulations
and amend and rescind them. All executive orders or proclamations declaring or terminating
a state of emergency or disaster must indicate the nature of the emergency or disaster, the
area threatened, and the conditions that have brought about the declaration or that make
possible termination of the state of emergency or disaster.

Appendix 54a

MCA 13-13-201 – Voting by absentee ballot--procedures
(1) A legally registered elector or provisionally registered elector is entitled to vote by absentee
ballot as provided for in this part.
(2) The elector may vote absentee by:
(a) marking the ballot in the manner specified;
(b) placing the marked ballot in the secrecy envelope, free of any identifying marks;
(c) placing the secrecy envelope containing one ballot for each election being held in the
signature envelope;
(d) executing the affirmation printed on the signature envelope; and
(e) returning the signature envelope with all appropriate enclosures by regular mail,
postage paid, or by delivering it to:
(i) the election office;
(ii) a polling place within the elector’s county;
(iii) pursuant to 13-13-229, the absentee election board or an authorized election
official; or
(iv) in a mail ballot election held pursuant to Title 13, chapter 19, a designated place of
deposit within the elector’s county.
(3) Except as provided in 13-21-206 and 13-21-226, in order for the ballot to be counted, each
elector shall return it in a manner that ensures the ballot is received prior to 8 p.m. on
election day.
(4) A provisionally registered elector may also enclose in the outer signature envelope a copy of
the elector’s photo identification showing the elector’s name. The photo identification may
be but is not limited to a valid driver’s license, a school district or postsecondary education

Appendix 55a

photo identification, or a tribal photo identification. If the provisionally registered elector
does not enclose a photo identification, the elector may enclose a copy of a current utility
bill, bank statement, paycheck, notice of confirmation of voter registration issued pursuant
to 13-2-207, government check, or other government document that shows the elector’s
name and current address.
MCA 13-13-205 – When ballots to be available for absentee voting
(1) Except as provided in subsection (2), the election administrator shall ensure that ballots for a
polling place election are available as follows:
(a) for an election conducted on a primary or general election day:
(i) 30 days prior to election day for absentee voting in person;
(ii) 25 days prior to the election for mailing ballots to absentee voters; and
(b) 20 days prior to election day for a special purpose district or school district election,
except that ballots for a conservation district election held on a primary or general
election day must be available as provided in subsection (1)(a).
(2) A federal election ballot requested by an absent uniformed services or overseas elector
pursuant to Title 13, chapter 21, must be sent to the elector as soon as the ballot is printed
but not later than 45 days in advance of the election.
MCA 13-13-211 – Time period for application
(1) Except as provided in 13-13-222, 13-21-223, and subsection (2) of this section, an
application for an absentee ballot must be made before noon on the day before the election.
(2) A qualified elector who is prevented from voting at the polls as a result of illness or health
emergency occurring between 5 p.m. of the Friday preceding the election and before the

Appendix 56a

close of polls on election day may request to vote by absentee ballot as provided in
13-13-212(2).
(3) An absentee ballot cast pursuant to subsection (2) must be received prior to 8 p.m. on
election day pursuant to 13-13-201.
MCA 13-13-212 – Application for absentee ballot--special provisions--absentee ballot list
for subsequent elections
(1) (a) Except as provided in subsection (1)(b), an elector may apply for an absentee ballot by
using a standard application form provided by rule by the secretary of state pursuant to
13-1-210 or by making a written request, which must include the applicant’s birth date
and must be signed by the applicant. The request must be submitted to the election
administrator of the applicant’s county of residence within the time period specified in
13-13-211.
(b) A person who holds a power of attorney from a uniformed-service voter may apply for
an absentee ballot for that election on behalf of the uniformed-service voter. The
applicant shall provide a copy of the power of attorney authorizing the request for an
absentee ballot along with the application.
(2) (a) If an elector requests an absentee ballot because of a sudden illness or health
emergency, the application for an absentee ballot may be made by written request
signed by the elector at the time that the ballot is delivered in person by the absentee
election board or by an authorized election official as provided in 13-13-225.
(b) The elector may request by telephone, facsimile transmission, or other means to have a
ballot and application personally delivered by the absentee election board or by an
authorized election official at the elector’s place of confinement, hospitalization, or
residence within the county.

Appendix 57a

(c) A request under subsection (2)(a) must be received by the election administrator within
the time period specified in 13-13-211(2).
(3) An elector may at any time request to be mailed an absentee ballot for each subsequent
election in which the elector is eligible to vote as long as the elector remains qualified to
vote and resides at the address provided in the initial application. The request may be made
when the individual applies for voter registration using the standard application form
provided for in 13-1-210.
(4) (a) An elector who has requested to be on the absentee ballot list and who has not filed a
change of address with the U.S. postal service must continue to receive an absentee
ballot for each subsequent election.
(b) (i)

The election administrator shall biennially mail a forwardable address
confirmation form to each elector who is listed in the national change of address
system of the U.S. postal service as having changed the elector’s address.

(ii) The address confirmation form must request the elector’s driver’s license number
or the last four digits of the elector’s social security number. The address
confirmation form must include an e-mail address for the election administrator
that can be used by the elector to confirm that the elector wishes to continue to
receive an absentee ballot and to provide the requested information. The address
confirmation form must be mailed in January of every even-numbered year. The
address confirmation form is for elections to be held between February 1 following
the mailing through January of the next even-numbered year.

Appendix 58a

(iii) An election administrator may provide a website on which the elector can provide
the required information to confirm that the elector wishes to remain on the
absentee ballot list.
(iv) If the elector is providing confirmation using the address confirmation form, the
elector shall sign the form, indicate the address to which the absentee ballot should
be sent, provide the elector’s driver’s license number or the last four digits of the
elector’s social security number, and return the form to the election administrator.
(v) The elector may provide the required information to the election administrator
using:
(A) the e-mail address provided on the form; or
(B) a website established by the election administrator.
(vi) The elector does not need to provide a signature when using either option provided
in subsection (4)(b)(v) to confirm that the elector wishes to remain on the absentee
ballot list.
(vii) If the form is not completed and returned or if the elector does not respond using
the options provided in subsection (4)(b)(v), the election administrator shall
remove the elector from the absentee ballot list.
(c) An elector may request to be removed from the absentee ballot list for subsequent
elections by notifying the election administrator in writing.
(d) An elector who has been or who requests to be removed from the absentee ballot list
may subsequently request to be mailed an absentee ballot for each subsequent election.
(5) In a mail ballot election, ballots must be sent under mail ballot procedures rather than under
the absentee ballot procedures set forth in this section.

Appendix 59a

MCA 13-13-213 – Transmission of application to election administrator--delivery of ballot
(1) All absentee ballot application forms must be addressed to the appropriate county election
office.
(2) Except as provided in subsection (4), the elector may mail the signed application directly to
the election administrator or deliver the application in person to the election administrator.
An agent designated pursuant to 13-1-116 or a third party may collect the elector’s
application and forward it to the election administrator.
(3) (a) The election administrator shall compare the signature on the application with the
applicant’s signature on the registration form or the agent’s signature on the agent
designation form. If convinced that the individual making the application is the same as
the one whose name appears on the registration form or the agent designation form, the
election administrator shall deliver the ballot to the elector in person or as otherwise
provided in 13-13-214, subject to 13-13-205.
(b) If no signature is provided or the election administrator is not convinced that the
individual signing the application is the same person whose name appears on the
registration form or agent designation form, the election administrator shall notify the
elector as provided in 13-13-245.
(4) In lieu of the requirement provided in subsection (2), an elector who requests an absentee
ballot pursuant to 13-13-212(2) may return the application to the absentee election board or
an authorized election official. Upon receipt of the application, the absentee election board
or authorized election official shall examine the signatures on the application and a copy of
the voting registration form or agent designation form to be provided by the election
administrator. If the absentee election board or an authorized election official believes that

Appendix 60a

the applicant is the same person as the one whose name appears on the registration form or
agent designation form, the absentee election board or authorized election official shall
provide a ballot to the elector when the ballot is available pursuant to 13-13-205.
MCA 13-13-214 – Mailing absentee ballot to elector–delivery to person other than elector
(1) (a) Except as provided in 13-13-213 and in subsection (1)(c) of this section, the election
administrator shall mail, postage prepaid, to each legally registered elector and
provisionally registered elector from whom the election administrator has received a
valid absentee ballot application under 13-13-211 and 13-13-212 whatever official
ballots are necessary in a manner that conforms to postal regulations to require the
return rather than forwarding of ballots.
(b) The election administrator shall mail the ballots in a manner that conforms to the
deadlines established for ballot availability in 13-13-205.
(c) The election administrator may deliver a ballot in person to an individual other than the
elector if:
(i) the elector has designated the individual, either by a signed letter or by making the
designation on the application form in a manner prescribed by the secretary of state
or pursuant to 13-1-116;
(ii) the individual taking delivery of the ballot on behalf of the elector verifies, by
signature, receipt of the ballot;
(iii) the election administrator believes that the individual receiving the ballot is the
designated person; and
(iv) the designated person has not previously picked up ballots for four other electors.
(2) The election administrator shall enclose with the ballots:

Appendix 61a

(a) a secrecy envelope, free of any marks that would identify the voter; and
(b) a signature envelope for the return of the ballot. The signature envelope must be
self-addressed by the election administrator and an affirmation in the form prescribed
by the secretary of state must be printed on the back of the signature envelope.
(3) The election administrator shall ensure that the ballots provided to an absentee elector are
marked as provided in 13-13-116 and shall remove the stubs from the ballots, keeping the
stubs in numerical order with the application for absentee ballots, if applicable, or in a
precinct envelope or container for that purpose.
(4) Instructions for voting must be enclosed with the ballots. Instructions for primary elections
must include disposal instructions for unvoted ballots. The instructions must include
information concerning the type or types of writing instruments that may be used to mark
the absentee ballot. The instructions must include information regarding use of the secrecy
envelope and use of the signature envelope. The election administrator shall include a voter
information pamphlet with the instructions if:
(a) a statewide ballot issue appears on the ballot mailed to the elector; and
(b) the elector requests a voter information pamphlet.
MCA 13-13-245 – Notice to elector--opportunity to resolve questions
(1) As soon as possible after receipt of an elector’s absentee ballot application or signature
envelope, the election administrator shall give notice to the elector by the most expedient
method available if the election administrator determines that:
(a) the elector’s ballot is to be handled as a provisional ballot;
(b) the validity of the ballot is in question; or

Appendix 62a

(c) the election administrator has not received or is unable to verify the elector’s or agent’s
signature under 13-13-213 or 13-13-241.
(2) The election administrator shall inform the elector that, prior to 8 p.m. on election day, the
elector may:
(a) by mail, facsimile, electronic means, or in person, resolve the issue that resulted in the
ballot being handled as a provisional ballot, confirm the validity of the ballot, or verify
the elector’s or agent’s signature or provide a signature, after proof of identification, by
affirming that the signature is in fact the elector’s, by completing a new registration
form containing the elector’s current signature, or by providing a new agent designation
form; or
(b) if necessary, request and receive a replacement ballot pursuant to 13-13-204.
(3) The ballot of an elector who fails to provide information pursuant to subsection (2) must be
handled as a provisional ballot pursuant to 13-15-107.
(4) (a) If a ballot is returned as undeliverable, the election administrator shall investigate the
reason for the return.
(b) An elector must be provided with:
(i) the elector’s undeliverable ballot upon notification by the elector of the elector’s
correct mailing address; or
(ii) a replacement ballot if a request has been made pursuant to 13-13-204.
MCA 13-19-101 – Statement of purpose
The purpose of this chapter is to provide the option of and procedures for conducting certain
specified elections as mail ballot elections. The provisions of this chapter recognize that sound
public policy concerning the conduct of elections often requires the balancing of various

Appendix 63a

elements of the public interest that are sometimes in conflict. Among these factors are the
public’s interest in fair and accurate elections, the election of those who will govern or represent,
and cost-effective administration of all functions of government, including the conduct of
elections. The provisions of this chapter further recognize that when these and other factors are
balanced, the conduct of elections by mail ballot is potentially the most desirable of the available
options in certain circumstances.
MCA 13-19-104 – Mail ballot elections not mandatory--when authorized--when
prohibited--when county election administrator conducts
(1) Conducting elections by mail ballot is only one option available to local officials, and this
chapter does not mandate that the procedure be used.
(2) Except as provided in subsection (3), any election may be conducted by mail ballot.
(3) The following elections may not be conducted by mail ballot:
(a) a regularly scheduled federal, state, or county election;
(b) a special federal or state election, unless authorized by the legislature; or
(c) a regularly scheduled or special election when another election in the political
subdivision is taking place at the polls on the same day.
(4) (a) Except as provided in subsection (4)(b), if more than one mail ballot election is being
conducted in the political subdivision on the same day, the county election
administrator shall conduct the elections.
(b) The requirement that a county election administrator shall conduct more than one mail
ballot election on the same day does not apply to a mail ballot school bond election
conducted by the trustees of any two or more school districts that have unified pursuant
to 20-6-312 or that have created a joint board of trustees pursuant to 20-3-361.
MCA 13-19-105 – Role of secretary of state

Appendix 64a

In addition to other powers and duties conveyed by law, the secretary of state, with advice
from election administrators, shall:
(1) prescribe the form of materials to be used in the conduct of mail ballot elections;
(2) review written plans for the conduct of mail ballot elections as provided in 13-19-205; and
(3) adopt rules consistent with this chapter to:
(a) establish and maintain uniformity in the conduct of mail ballot elections; and
(b) establish procedures for the conduct of mail ballot elections that, when implemented by
the election administrator:
(i) prevent fraud;
(ii) ensure the accurate handling and canvassing of mail ballots; and
(iii) ensure that the secrecy of voted ballots is maintained.
MCA 13-19-106 – General requirements for mail ballot election
A mail ballot election must be conducted substantially as follows:
(1) Subject to 13-12-202, official mail ballots must be prepared and all other initial procedures
followed as provided by law, except that mail ballots must be paper ballots and are not
required to have stubs.
(2) An official ballot must be mailed to every qualified elector of the political subdivision
conducting the election.
(3) Each signature envelope must contain a form that is the same as the form for absentee ballot
signature envelopes and that is prescribed by the secretary of state for the elector to verify
the accuracy of the elector’s address or notify the election administrator of the elector’s
correct mailing address and to return the corrected address with the voted ballot in the
manner provided by 13-19-306.

Appendix 65a

(4) The elector shall mark the ballot and place it in a secrecy envelope.
(5) (a) The elector shall then place the secrecy envelope containing the elector’s ballot in a
signature envelope and mail it or deliver it in person to a place of deposit designated by
the election administrator.
(b) Except as provided in 13-21-206 and 13-21-226, the voted ballot must be received
before 8 p.m. on election day.
(6) Election officials shall first qualify the voted ballot by examining the signature envelope to
determine whether it is submitted by a qualified elector who has not previously voted in the
election.
(7) If the voted ballot qualifies and is otherwise valid, officials shall then open the signature
envelope and remove the secrecy envelope, which must be deposited unopened in an official
ballot box pursuant to the timeline specified in 13-13-241(7).
(8) Except as provided in 13-19-312, voted ballots must be counted and canvassed as provided
in Title 13, chapter 15.
MCA 13-19-201 – How election initiated
A proposal to conduct an election under this chapter may be initiated by either the election
administrator or the appropriate governing body as provided in 13-19-202 through 13-19-204.
MCA 13-19-202 – Initiation by governing body
(1) A political subdivision may, by resolution of the governing body addressed to the election
administrator, request that a particular election be conducted under the provisions of this
chapter.

Appendix 66a

(2) No later than 70 days before election day, the governing body shall transmit its request to
the election administrator, who shall determine whether it is economically and
administratively feasible to conduct the requested election by mail ballot.
(3) Except as provided in 13-19-204, the decision to conduct an election under the provisions of
this chapter is within the sole discretion of the election administrator.
(4) Within 5 days after receiving a request, the election administrator shall respond in writing,
stating that the request is either granted or denied for reasons specified. If granted, the
election administrator shall prepare a plan as provided in 13-19-205.
MCA 13-19-205 – Written plan for conduct of election--amendments--approval procedures
(1) The election administrator shall prepare a written plan for the conduct of each election to be
conducted by mail and shall submit the plan to the secretary of state in a manner that ensures
that it is received at least 60 days prior to the date set for the election. There must be a
separate plan for each type of election held even if held on the same day.
(2) The written plan must include:
(a) a timetable for the election; and
(b) sample written instructions that will be sent to the electors. The instructions must
include but are not limited to:
(i) information on the estimated amount of postage required to return the ballot;
(ii) (A) the location of the places of deposit and the days and times when ballots may
be returned to the places of deposit, if the information is available; or
(B) if the information on location and hours of places of deposit is not available, a
section that will allow the information to be added before the instructions are
mailed to electors; and

Appendix 67a

(iii) any applicable instructions specified under 13-13-214(4).
(3) The plan may be amended by the election administrator at any time prior to the 35th day
before election day by notifying the secretary of state in writing of any changes.
(4) Within 5 days of receiving the plan and as soon as possible after receiving any amendments,
the secretary of state shall approve, disapprove, or recommend changes to the plan or
amendments.
(5) When the written plan and any amendments have been approved, the election administrator
shall proceed to conduct the election according to the approved plan unless the election is
canceled for any reason provided by law.
MCA 13-19-206 – Distributing materials to electors--procedure
For each election conducted under this chapter, the election administrator shall:
(1) mail a single packet to every qualified elector of the political subdivision conducting the
election;
(2) ensure that each packet contains only one each of the following:
(a) an official ballot for each type of election being held on the specified election day;
(b) a secrecy envelope;
(c) a signature envelope; and
(d) complete written instructions, as approved by the secretary of state pursuant to
13-19-205, for mail ballot voting procedures;
(3) ensure that each packet is:
(a) addressed to a single individual elector at the most current address available from the
official registration records; and

Appendix 68a

(b) deposited in the United States mail with sufficient postage for it to be delivered to the
elector’s address; and
(4) mail the packet in a manner that conforms to postal regulations to require the return, not
forwarding, of undelivered packets.
MCA 13-19-306 – Returning marked ballots--when--where
(1) After complying with 13-19-301, an elector or the elector’s agent or designee may return the
elector’s ballot on or before election day by either:
(a) depositing the signature envelope in the United States mail, with sufficient postage
affixed; or
(b) returning it to any place of deposit designated by the election administrator pursuant to
13-19-307.
(2) Except as provided in 13-21-206 and 13-21-226, in order for the ballot to be counted, each
elector shall return it in a manner that ensures it is received prior to 8 p.m. on election day.
MCA 13-19-307 – Places of deposit
(1) (a) The election administrator shall designate the election administrator’s office and may
designate one or more places in the political subdivision in which the election is being
conducted as places of deposit where ballots may be returned in person by the elector or
the elector’s agent or designee.
(b) If the election administrator’s office is not accessible pursuant to 13-3-205, the election
administrator shall designate at least one accessible place of deposit.
(2) Prior to election day, ballots may be returned to any designated place of deposit during the
days and times set by the election administrator and within the regular business hours of the
location.

Appendix 69a

(3) On election day, each location designated as a place of deposit must be open as provided in
13-1-106, and ballots may be returned during those hours.
(4) The election administrator may designate certain locations as election day places of deposit,
and any designated location functions as a place of deposit only on election day.
(5) Each place of deposit must be staffed by at least two election officials who, except for
election judges serving in elections under Title 20, chapter 20, are selected in the same
manner as provided for the selection of election judges in 13-4-102.
(6) The election administrator shall provide each designated place of deposit with an official
ballot transport box secured as provided by law.
Federal Statutes
42 U.S.C. § 1983. Civil action for deprivation of rights
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of
any State or Territory or the District of Columbia, subjects, or causes to be subjected, any citizen
of the United States or other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper proceeding for redress, except that in
any action brought against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia shall be considered to be a statute of the
District of Columbia.

Appendix 70a

OFFICE

OF THE GOVERNOR
STATE OF MONTANA

STEVE BULLOCK
GOVERNOR

TO:
FROM:
DATE:
RE:

MIKE COONEY
LT. GOVERNOR

Montanans; county clerks; and all officers and agencies of the State of Montana
Governor Steve Bullock
August 6, 2020
Directive implementing Executive Orders 2-2020 and 3-2020 and providing for
measures to implement the 2020 November general election safely

Executive Orders 2-2020 and 3-2020 declare that a state of emergency exists in Montana due to the
global outbreak of COVID-19 Novel Coronavirus.
Section 10-3-104(2)(a), MCA, authorizes the Governor during a state of emergency to “suspend the
provisions of any regulatory statute prescribing the procedures for conduct of state business or orders
or rules of any state agency if the strict compliance with the provisions of any statute, order, or rule
would in any way prevent, hinder, or delay necessary action in coping with the emergency or disaster.”
Further, § 10-3-104(2)(c), MCA, authorizes the Governor to “control ingress and egress to and from an
incident or emergency or disaster area, the movement of persons within the area, and the occupancy of
premises within the area,” and § 10-3-305(2), MCA provides that “all officers and agencies shall
cooperate with and extend their services and facilities to the governor as the governor may request.”
Montana’s public health laws also authorize the Department of Public Health and Human Services
(DPHHS), acting under the Governor’s direction, to “issue written orders for correction” of
“conditions of public health importance,” to “prevent and mitigate conditions of public health
importance” through measures including “isolation and quarantine” and “abatement of public health
nuisances.” Section 50-1-202, MCA. DPHHS, under the Governor’s direction, may also take action to
correct public health deficiencies in “buildings or facilities where people congregate.” Section 50-1203, MCA.
COVID-19 is an easily transmissible, potentially fatal respiratory illness that has infected millions of
Americans, hospitalized hundreds of thousands, and taken over 150,000 lives, particularly among those
who are aged 60 years or older or who have co-occurring medical conditions that put them at risk of
severe complications. The Centers for Disease Control and Prevention (CDC) has recognized that inperson voting on election day increases the risk of transmission, and has therefore urged states to
“[e]ncourage voters to use voting methods that minimize direct contact with other people and reduce
crowd size at polling stations.” Unfortunately, the same factors that give rise to the CDC’s concerns
are present in Montana’s typical election procedures as well: election workers, many over 60 years old,
are placed in close proximity to each other; large crowds or lines congregate in a limited number of
locations; and papers, pens, and other possible infection vectors are exchanged.
Based on these considerations, and in response to requests from Montana’s county election
administrators, on March 25, 2020, I issued a Directive providing for expanded mail-in and early
voting for school district elections and the June 2020 primary election. County election administrators
adeptly managed the change in procedures, and that election was a success, marked by an increase in
voter turnout compared to previous primary elections.
STATE CAPITOL • P.O. BOX 200801 • HELENA, MONTANA 59620-0801
TELEPHONE: 406-444-3111 • FAX: 406-444-5529 • WEBSITE: WWW.MT.GOVAppendix 71a

August 6, 2020
Page 2

Since the June 2020 primary election, the number of COVID-19 cases has grown across Montana and
the United States. It is increasingly unlikely that the pandemic will have fully abated by November
such that traditional in-person voting will not pose a significant risk to public health and human safety.
Public health experts have advised that typical election procedures in Montana would create an
unacceptable health and safety risk to all Montanans—voters, poll workers, and non-voters alike.
Montana’s bipartisan group of county election administrators have agreed that the March 25, 2020
Directive successfully maximized safety and Montanans’ opportunity to vote. Based on their
experience with the primary election and the increase in cases since, these local administrators have
formally requested that the same process be followed for the 2020 general election. They have stressed
the serious ethical concerns with conducting an election using standard procedures. The election
administrators warn of potential chaos if polling locations (such as school gyms) are closed at the last
minute or counties are forced to consolidate polling locations. The election administrators, in their
expert judgment, urge that Montana follow a process resembling that used for the June 2020 primary—
providing early voting opportunities as well as expanded mail voting—to maximize opportunities to
vote while minimizing the risk to public health.
The state’s chief executive has a duty to protect the health and safety of Montanans, and to safeguard
their constitutional rights. Chief among those rights is the franchise. Accordingly, in consultation with
election administrators and public health experts, I have determined that reliance on typical election
procedures for the general election would prevent, hinder, or delay necessary action in coping with the
emergency.
Fortunately, Montana already has a simple, clear, well-established set of procedures in law that govern
mail elections. And existing law provides opportunities for Montanans to vote early—at any time
during the voting period. Measures that encourage more Montanans to vote by mail and to vote early
will ease crowding and pressure on Election Day voting. Under current procedures, Montanans who
have not affirmatively signed up for an absentee ballot sufficiently in advance of the election will face
the choice of whether to vote in person, risking exposure to COVID-19, or to stay at home. This
Directive is intended to ensure no Montanan will have to choose between their vote or their health.
The Directive implements most of the measures that were put into place for the June 2020 primary
election, with some changes aimed at improving procedures and adopting recommendations from
county election administrators. As with the March 25, 2020 Directive, this Directive permits counties,
at their local discretion, to expand access to voting by mail and early voting. Additionally, the
Directive continues measures that require all counties to ensure appropriate social distancing to make
voting and voter registration safe for all Montanans. This Directive applies only to the 2020 general
election.
Current law permits in-person voting during the entire voting period. Therefore, even in counties that
opt for vote-by-mail, in-person voting will still be permitted. Giving the counties the option to invoke
mail balloting procedures is intended to shift the default position from voting in person to voting by
mail. The default under current law—voting in person—poses too many risks in the State’s fight
against COVID-19. The success of the June 2020 primary election, as reviewed by Montana’s
bipartisan election administrators, has left me confident that the best course of action is to empower
local leaders to make the choice for how to administer the election in a manner best suited to their
communities’ public and civic health needs.
Appendix 72a

August 6, 2020
Page 3

Therefore, in accordance with the authority vested in me under the Constitution, Article VI, Sections 4
and 13, and the laws of the State of Montana, Title 10, Chapter 3 and Title 50, Chapter 1, MCA, and
other applicable provisions of the Constitution and Montana law, I hereby direct the following
measures be in place in the State of Montana effective immediately:
1. Counties Permitted to Conduct Mail Ballot Elections and Expanded Early Voting
 Counties in Montana may, but are not required to, conduct the November 3, 2020, general
election under the mail ballot provisions of Title 13, Chapter 19, MCA.
o To the limited extent that § 13-19-104(3), MCA, is in conflict, strict compliance with its
provisions is suspended.
o Except as expressly provided otherwise in this Directive, all other provisions of
Title 13, Chapter 19, MCA, apply to a mail ballot election conducted pursuant to this
Directive.


Counties that opt to conduct a mail ballot election pursuant to this Directive and Title 13,
Chapter 19, MCA, must expand opportunities for early voting by:
o Making ballots available at the election administrator’s office or other designated
location from October 2, 2020, until the end of the election.
o Allowing voters to apply for, receive, and mark a ballot in-person in a manner
consistent with the provisions of § 13-13-222, MCA.
 If an elector marks a ballot in-person under this provision, and has also been
sent a mail ballot, the election administrator shall mark the mailed ballot as void
in the statewide voter registration system.
o Counties that receive a request for satellite voting services from a tribal government
must provide a satellite voting office capable of providing the early voting services
described above from October 2, 2020, until the end of the election in accordance with
the Secretary of State’s Election Directive #01-2015 and any relevant agreements in the
Wandering Medicine v. McCulloch settlement.



Counties that opt to conduct an early vote/mail ballot election pursuant to this Directive and
Title 13, Chapter 19, MCA, shall send mail ballots on October 9, 2020, consistent with § 1313-205(1)(a)(ii), MCA.
o To the extent § 13-19-207(1), MCA, permits ballots to be mailed after October 9, 2020,
strict compliance with its provisions is suspended.



Counties that opt to conduct an early vote/mail ballot election pursuant to this Directive and
Title 13, Chapter 19, MCA, must include a prominent notice with instructions sent to voters
with mail ballots that a postage stamp is not necessary to return the ballot by mail.
o Counties may seek reimbursement from the Montana Department of Administration for
postage costs incurred by voters returning a ballot through the mail, to be paid from the
fund provided at § 10-3-312, MCA, or through federal emergency assistance and
response funds if available, subject to the approval of the Office of Budget and Program
Planning. Further guidance will be distributed to counties on how to obtain this
reimbursement.
o Nothing in this Directive prevents counties from seeking additional reimbursement from
the federal government or the Secretary of State if federal emergency assistance is made
available.

Appendix 73a

August 6, 2020
Page 4



Provisions of Title 13, Chapter 19, MCA, that are inconsistent with this Directive are
suspended to the limited extent necessary to achieve conformity with the above.

2. Measures Required for Safe Registration and Voting


All counties, regardless of whether they have opted to conduct a mail ballot election, shall
establish, implement, and enforce protocols—consistent with CDC guidelines as well as state
and local public health directives—to limit the transmission of COVID-19 at polling locations,
designated drop-off locations, or public-facing portions of facilities involved in voting.1



County election administrators shall not close regular registrations until 10 days before election
day. Strict compliance with the provisions of § 13-2-301(a), MCA, is suspended to the extent
the statute is in conflict.
o Extending the close of registration until 10 days before election day will minimize the
need for in-person registration or lines for registration near the end of the election.
o It is the responsibility of any individual who does not register in-person before the
election to ensure that they receive and return a ballot before the end of the election,
either under mail ballot/early vote procedures provided in this Directive for individuals
registered in counties that opt to conduct a mail ballot election pursuant to the
provisions of this Directive, or through typical voting procedures for individuals
registered in counties that do not so opt.



In advance of the election, counties should publicize and provide information to voters about
polling locations and designated drop-off locations, as well as any changes or updates to those
locations through website updates, letters, posters, advertising, posted signs, or other
communications.
o The Secretary of State is requested to include designated place of deposit locations, and
changes and updates thereto, on voters’ “My Voter Page” profiles on the Secretary of
State’s website.



Counties should have Automark or Expressvote available at polling locations from October 2,
2020, through election day and should, to the maximum extent possible, make accommodations
for Montanans with disabilities to vote during the election period.



Counties are encouraged to explore curbside and drive-up options for voting, registration, and
other voter services. Counties are also encouraged to promote the availability of early voting or
voting by mail. Finally, counties are encouraged to use designated places of deposit as provided
in § 13-19-307, MCA, provided that these too are administered consistent with social
distancing guidelines.



In response to county election administrators’ request, in counties containing all or part of a
reservation, election administrators are encouraged to coordinate with Western Native Voice or
similar nonprofit organizations advocating for Native Americans to facilitate voting on
reservations, including but not limited to arrangements for adequate designated drop-off
locations on the reservations or making transportation arrangements for voters seeking to vote
in person.

The guidance is available at https://www.cdc.gov/coronavirus/2019-ncov/community/electionpolling-locations.html.
Appendix 74a
1

August 6, 2020
Page 5

Authorities: Executive Orders 2-2020 and 3-2020; Montana Constitution, Art. VI, Sections 4 and 13;
§§ 10-3-103, -104, -302, and -305, MCA; §§ 50-1-202, -203, and -204, MCA; and all other applicable
provisions of state and federal law.
Limitations
 This Directive is effective immediately and expires at the end of the 2020 general election.
 This Directive shall be implemented consistent with applicable law and subject to the
availability of appropriations.
 Nothing in this Directive shall be construed to limit, modify, or otherwise affect the authority
granted by law to the Governor or any department, agency, political subdivision, officer,
agent, or employee of the State of Montana, except as provided in this Directive or other
Directives now in effect implementing Executive Orders 2-2020 and 3-2020.
 This Directive is not intended to, and does not, create any right or benefit, substantive
or procedural, enforceable at law or in equity by any party against the State of Montana,
its departments, agencies, or entities, its officers, employees, or agents, or any other
person.

Appendix 75a

